           U.S. Department of
                                                  Memorandum
           Transportation
           Office of the Secretary
           of Transportation
           Office of Inspector General


Subject:   ACTION: Report on Consolidated Financial                   Date:    January 30, 2004
           Statements for Fiscal Years 2003 and 2002, DOT
           FI-2004-031

  From:    Kenneth M. Mead                                         Reply to
                                                                   Attn. of:   JA-20:x61496
           Inspector General

    To:    The Secretary

           I respectfully submit the Office of Inspector General (OIG) report on the
           Department of Transportation (DOT) Consolidated Financial Statements for Fiscal
           Years (FY) 2003 and 2002 (see attachment). This report is required by the Chief
           Financial Officers Act of 1990, as amended by the Government Management
           Reform Act of 1994.


           UNQUALIFIED OPINION
           This audit report concludes that DOT’s Consolidated Financial Statements are
           presented fairly, in all material respects, in conformity with U.S. generally
           accepted accounting principles. This is the third fiscal year in a row—2001, 2002,
           and 2003—in which DOT achieved an unqualified or “clean” opinion. The clean
           audit opinion signals to users of the financial statements that they can rely on the
           information presented.

           I want to acknowledge the extraordinary efforts made by each of the Operating
           Administrations, the Department’s Office of Financial Management, and KPMG
           LLP and Clifton Gunderson LLP (contractors we engaged to audit the Federal
           Aviation Administration (FAA) and the Highway Trust Fund (HTF) financial
           statements). Also, this clean opinion would not have been possible without your
           long-standing commitment to improving financial management practices and your
           guidance to Department officials to take the actions necessary to overcome
           significant problems encountered this year when the Federal Highway
           Administration (FHWA) and the Federal Motor Carrier Safety Administration
           (FMCSA) converted to Delphi, the Department’s new accounting system.
                                                                                  2


In FY 2004, the Department will continue to face significant challenges to
complete its financial statements and obtain a clean opinion by the Office of
Management and Budget’s accelerated reporting date of November 15, 2004. As a
result, we all need to focus immediately on implementing corrective actions to
ensure that the Department meets the November 15, 2004 reporting date.
Ultimately, the financial statement audit should be a routine task that does not
divert excessive resources from ongoing financial management activities. This
will require significant improvements in the systems, processes, and discipline
needed to generate timely and reliable financial statements and the needed
improvements are described on pages 3 to 6 of this letter. Implementing these
improvements will also provide a solid foundation for more effective day-to-day
financial management practices and better tools for ensuring the integrity of
financial activities.

In terms of the size of its financial operations, DOT is comparable to several large
corporations. In terms of year-end assets, DOT is similar to Chevron-Texaco,
Hewlett-Packard, and Microsoft. In terms of year-end liabilities, DOT is similar
to Home Depot and Microsoft. In terms of program costs (expenses), DOT is
similar to IBM, Boeing, Hewlett-Packard, and Home Depot.

The DOT Consolidated Financial Statements for FY 2003 show year-end assets of
about $71 billion, year-end liabilities (debts) of $13 billion, costs of operations
(program costs) of $58 billion, and total budgetary resources (available financial
resources) of $128 billion. It is important to note that, over the years, DOT has
invested billions of dollars to build transportation infrastructure and to improve
safety. Because most of those investments were in the form of grants to states and
local governments, the resulting assets—highways, transit systems, and airport
runways—are not included as assets on DOT’s books. In contrast, investments
related to the acquisition of property and equipment, such as radars and air traffic
control computer systems, are considered DOT assets, and are reflected in the
financial statements. The majority of DOT’s budgetary resources come from two
trust funds, the Highway Trust Fund and the Airport and Airway Trust Fund. Tax
collections deposited into those Trust Funds totaled $45 billion during FY 2003 to
be used for surface and airway transportation investments.

Comparisons between the FY 2002 and FY 2003 DOT Consolidated Financial
Statements need to recognize that both the Transportation Security Administration
(TSA) and the U. S. Coast Guard transferred to the Department of Homeland
Security on March 1, 2003. Consequently, the financial picture of DOT on
September 30, 2003, is very different than it was on September 30, 2002. On
March 1, 2003, when they transferred, TSA had a net value (assets less liabilities)
of $6.3 billion and Coast Guard had a negative net value of –$14.9 billion. These
amounts were off DOT’s books entirely on September 30, 2003. However, TSA
                                                                                                                  3


and Coast Guard financial activities (such as revenues, costs, and budgetary
resources) for the first 5 months of FY 2003 are reflected in the DOT financial
statements on September 30, 2003. So, for example, $4.6 billion of the $58 billion
costs of operations during FY 2003 were incurred by TSA and Coast Guard.


INTERNAL CONTROLS
Extraordinary effort by DOT employees and the auditors were required to obtain
this unqualified opinion. In particular this year, the HTF agencies,1 the
Department’s Office of Financial Management, and the auditors had to overcome
significant financial management and accounting deficiencies in order to generate
auditable financial information and complete the audit on time. This year, FAA
generated its financial statements from the old DOT accounting system. Due to
the manual adjustments necessary to prepare auditable financial statements, FAA
did not provide complete financial statements to DOT for consolidation until
November 14, 2003. FAA converted to Delphi in November 2003, and an
effective transition to the new system will be critical to meeting next year’s
November 15, 2004 reporting date.

We categorized these problems into four material weaknesses and five reportable
conditions. Responding to a draft of this report, DOT agreed with these findings
and committed to take timely corrective action. On December 30, 2003, as
required by the Federal Managers’ Financial Integrity Act of 1982, the Secretary
of Transportation also reported the four material weaknesses to the President and
Congress.


Material Weaknesses
Material weaknesses are deficiencies in the design or operation of internal controls
that do not reduce, to a relatively low level, the risk that significant errors, fraud,
or noncompliance could occur and not be detected by employees in the normal
course of performing their duties.

      • Information Security Program. In September 2003, we issued our third
        annual report on DOT’s Information Security Program as required by the
        Federal Information Security Management Act. DOT has made significant
        progress in protecting its systems against external attacks through the
        Internet. However, DOT is still behind in protecting its systems against
        internal attacks from employees, contractors, grantees, and industry

1
    Federal Highway Administration (FHWA), National Highway Traffic Safety Administration (NHTSA), Federal
    Transit Administration (FTA), Federal Railroad Administration (FRA), Federal Motor Carrier Safety Administration
    (FMCSA), and the Bureau of Transportation Statistics (BTS).
                                                                            4


   associations. DOT must also do more to complete background checks on
   contractor employees performing sensitive work and to enhance
   contingency planning to ensure business continuity in an emergency. The
   Department has committed to correct these problems and is taking actions
   to do so.

• Cost-Reimbursable Contracts at the Federal Aviation Administration
  (FAA). We previously reported that FAA’s management and oversight of
  billions of dollars of cost-reimbursable contracts, which have few inherent
  protections against cost overruns or improper payments for unallowable
  costs, were not adequate to ensure that the Government’s interests were
  protected. FAA records indicate that over $15 billion worth of cost
  reimbursable contracts are active. Although FAA has made significant
  progress closing out completed cost-reimbursable contracts, about $3.4
  billion worth of completed contracts remain to be closed. FAA needs to
  complete the closeout of cost-reimbursable contracts, ensure that it obtains
  appropriate audits for all active contracts, and strengthen the processes it
  uses to award and monitor cost-reimbursable contracts.

• Financial Management and Reporting for Highway Trust Fund
  Agencies. Material deficiencies exist in internal controls over financial
  management and reporting activities in the HTF agencies. HTF agencies
  lack adequate accounting and financial management policies and
  procedures. To illustrate, most HTF agencies did not routinely reconcile
  their accounts during the year, a basic management practice. Problems
  caused by these long-standing deficiencies were compounded this year
  because two major HTF agencies (FHWA and FMCSA) had not adequately
  planned or implemented their conversions to Delphi in February 2003. In
  particular, because these agencies did not correct bad data from the old
  system before converting to the new system, many transactions were either
  processed incorrectly or rejected by the new system. Without major
  improvements in accounting policies and procedures at all HTF agencies,
  the FY 2004 financial statements may not be completed by the Office of
  Management and Budget’s deadline of November 15, 2004. HTF agencies
  and DOT officials have recognized the significance of these deficiencies
  and have committed to take timely corrective actions.

• Reconciling Transactions With Other Federal Agencies (Intra-
  governmental Transactions). DOT has not implemented effective
  processes to reconcile its transactions with other Federal agencies. This
  problem occurs, for example, when FAA performs reimbursable work for
  the Department of Defense. To prepare reliable Government-wide financial
  statements, these transactions, which are internal to the Federal
                                                                                   5


       Government, must be tracked and eliminated. The General Accounting
       Office has reported that Federal agencies’ inability to account for these
       transactions properly is a major impediment to a clean audit opinion on the
       Consolidated Financial Report on the United States. During FY 2003,
       some DOT agencies partially confirmed or reconciled their transactions
       with other Federal agencies, but most did not. DOT’s asset, liability, and
       revenue balances included more than $4.5 billion of transactions with other
       Federal agencies in FY 2003. DOT has agreed to implement reconciliation
       procedures to correct this problem.


Reportable Conditions
Reportable conditions in internal controls, although not considered material
weaknesses, represent significant deficiencies in the design or operation of internal
controls that could adversely affect the DOT consolidated financial statements.

   • Delphi Computer Security. In September 2003, we issued a report
     regarding the computer security and controls over DOT’s new financial
     management system, Delphi. To achieve its full potential, DOT needs to
     enhance security and controls over Delphi operations. We also found that
     important security measures had not been implemented or enforced, system
     changes were not properly tested, and contingency planning was not
     adequate. DOT has agreed to correct the deficiencies and has begun to do
     so.

   • Financial Management Reviews of Grantees, FHWA.                        FHWA
     frequently did not perform financial management reviews of grantees.
     FHWA relies on its Division Offices to periodically schedule and perform
     financial management reviews of grantees. However, Clifton Gunderson
     identified 25 instances when FHWA Divisions did not conduct financial
     reviews of grantees. One consequence of the lack of financial management
     reviews is the existence of unneeded obligations that could be used more
     productively on active projects. Preliminary results from our review of
     inactive obligations identified hundreds of millions of dollars of unneeded
     obligations that should be deobligated so the funds can be used on other
     active projects. This is especially important at a time of budget constraints.

   • Property, Plant and Equipment, FAA. FAA has made substantial
     progress correcting material weaknesses in its controls over property, plant,
     and equipment. However, the value of these assets at September 30, 2003
     was $13.4 billion, and FAA does not yet fully adhere to established policies
     and procedures to ensure its property, plant, and equipment accounts were
     properly reported. To illustrate, during FY 2003, FAA’s property system
                                                                               6


      was unable to communicate with the accounting system. This increased the
      likelihood of errors and required FAA to reconcile differences between the
      systems manually. Further, FAA had not implemented adequate controls to
      prevent errors when calculating property values and to record new assets in
      a timely manner. FAA agreed to implement recommendations to correct
      these problems.

   • Financial Management Practices, the Maritime Administration
     (MARAD). MARAD needs to establish policies and procedures to ensure
     that its inventory, property, and environmental liabilities are reported
     properly. For example, we found that some new inventory purchases were
     not recorded and some inventory was incorrectly priced. On a related
     issue—MARAD’s implementation of the Title XI loan guarantee
     program—we previously reported that MARAD needs to improve its
     oversight of the loan-application process; borrowers; vessels and shipyards
     constructed under loan guarantees; and foreclosed assets. MARAD is in
     the process of implementing our recommendations to improve its Title XI
     oversight processes. In this report, we are recommending that MARAD
     improve the accounting for inventory, property, and environmental
     liabilities.

   • Accounting for Loans in Delphi. DOT needs to improve the accounting
     for loans receivable in Delphi. The new DOT accounting system, Delphi,
     does not include a module or subsidiary ledger system to accurately
     account for loans receivable, valued at more than $1 billion on
     September 30, 2003. FRA, FHWA, and MARAD recorded loan activity
     directly in the Delphi general ledger, and relied on information from
     outside the accounting system (such as commercial banks), for detailed
     loan transactions. In addition, FRA and FHWA did not routinely reconcile
     their recorded loan balances. We are making a recommendation to DOT to
     establish a module or subsidiary ledger system in Delphi to improve the
     accounting for loans receivable and permit routine reconciliations of loan
     balances.


COMPLIANCE WITH LAWS AND REGULATIONS
Our tests of DOT’s compliance with laws and regulations identified instances
where DOT could improve its compliance with the following laws.

• The Federal Financial Management Improvement Act of 1996 (FFMIA).
  Because several large Operating Administrations had not completely
  implemented DOT’s new accounting system, which is designed to comply with
  Federal standards, DOT did not meet FFMIA requirements to use a single
                                                                                7


   integrated financial management system that substantially complies with
   Federal system requirements, Federal accounting standards, and the standard
   general ledger. DOT expects to meet these requirements when the Delphi
   system is fully implemented during FY 2004. When it completes this
   conversion, DOT expects to be the first cabinet level agency to have
   implemented, Department-wide, a commercial-off-the-shelf financial
   management system that meets Federal financial management system
   requirements.

• The Anti-Deficiency Act. Two instances of noncompliance with the Anti-
  deficiency Act were identified at FAA. One potential instance was identified
  at FHWA. In addition, two instances reported in 2002 have not been fully
  resolved.

• The Federal Managers’ Financial Integrity Act of 1982 (FMFIA). HTF
  agencies have not fully implemented formal procedures to identify, assess, and
  monitor management controls over programs and resources, including financial
  information systems, as required by FMFIA.

• The Single Audit Act. DOT has not effectively implemented certain
  provisions of the Single Audit Act, including tracking the receipt of single
  audit reports, distributing the reports in a timely manner, and making timely
  management decisions to address report recommendations. DOT has agreed to
  take action to improve its implementation of the Single Audit Act.

This report includes two new recommendations to improve financial management
practices in MARAD and loan accounting in Delphi. We provided a draft of this
report to the Acting DOT Assistant Secretary for Budgets and Programs, who
concurred with the findings and agreed to implement the recommendations. DOT
and its Operating Administrations have initiated corrective actions to address the
internal control and compliance issues identified by KPMG and Clifton Gunderson
in their reports.

We appreciate the cooperation and assistance of DOT, KPMG, and Clifton
Gunderson representatives. If we can answer any questions, please call me at
(202) 366-1959, or Ted Alves, Assistant Inspector General for Financial and
Information Technology Audits at (202) 366-1496.

Attachment

                                        #
